Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

June 1,2021

Chief Justice

Brian K. Zahra.
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,
Justices

161608 & (19X20)(21)

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

-

SC: 161608
COA: 351729
Jackson CC: 90-053331-FC

v
T.ONZTF, WAYNE McQUIRTER,
Defendant-Appellant.

On order of the Court, the application for leave to appeal the March 24, 2020 order
of the Court of Appeals is considered, and it is DENIED, because the defendant’s motion
for relief from judgment is prohibited by MCR 6.502(G). The motions to remand, to
compel discovery, and for a show cause order are DENIED.

s
joi
'£J

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
June 1, 2021

a0524

Clerk

Court of Appeals, State of Michigan
ORDER
People of MI v Lonzie Wayne McQuirter

Jane E. Markey
Presiding Judge

Docket No.

351729

Douglas B. Shapiro

LC No.

90-053331-FC

James Robert Redford
Judges

The Court GRANTS the motion to waive fees for this case only.
The Court DISMISSES the motion to remand and the delayed application for leave to
appeal because defendant has failed to demonstrate the entitlement to an application of any of the
exceptions to the general rule that a movant may not appeal the denial of a successive motion for relief
from judgment and because defendant has failed to establish a significant possibility that he is innocent
of the conviction offenses. MCR 6.502(G).

Presiding Judge

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk , on

MAR 2 A 2020
1 9 6 6

Date

Chiei

lerk

APPENDIX B

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF JACKSON

PEOPLE OF THE STATE OF MICHIGAN,
Case No. 90-053331-FC
Plaintiff,
Hon. Thomas D. Wilson

v
LONZIE WAYNE MCQUIRTER #168742,
Defendant.

JERRY SCHROTENBOER (P33223)
Chief Appellate Attorney
Office of Jackson County Prosecutor
312 S. Jackson Street
Jackson, MI 49201

LONZIE WAYNE MCQUIRTER #168742
Defendant in Pro Per
Lakeland Correctional Facility
141 First Street
Coldwater, MI 49036

ORDER FOLLOWING MOTION FOR RET JEF FROM JUDGMENT AND MOTION
FOR EVIDENTIARY HEARING

This Court has reviewed defendant’s Motion for Relief from Judgement. On January 23,
1992, a jury convicted defendant of armed robbery, MCL 750.529, breaking and entering an
occupied dwelling, MCL 750.110, and conspiracy, MCL 750.227b. Subsequently, on February
25, 1992, Jackson County Circuit Court Judge Schmucker sentenced defendant to 40 to 80 years,
15 to 22 Vi years, and 40 to 80 years, all concurrent. Defendant then appealed by right and on
September 1, 1995, the Court of Appeals affirmed. Then, on July 26, 1996, the Supreme Court
denied leave to appeal. Defendant then filed a petition for a writ of habeas corpus that was
denied by Eastern District Court Judge Cleland on June 24,1999. Then, on November 7, 2000,
the Sixth Circuit Affirmed. Subsequently, on May 14, 2001, the United States Supreme Court
denied cs-vtiovoi^i and denied rehearing on June 29, 2001.

Defendant then filed his first motion for relief from judgement which was denied on
December 19, 2002 by Judge Grant. Subsequently, the Court of Appeals denied leave to appeal
on August 13, 2003 and on February 27, 2004, the Supreme Court also denied leave to appeal.

Defendant then requested to file a second petition to the Sixth Circuit which was denied on
September 17, 2004. Then, on April 4, 2005, the United States Supreme Court denied his request
for habeas corpus and denied his request for rehearing on May 23, 2005. Following that,
Defendant filed his second motion for relief from judgement which Judge Schmucker denied on
December 29, 2005. Then, on April 21, 2006, the Court of Appeals dismissed the application
under MCR 6.502(G). Subsequently, on October 31, 2006, the Supreme Court denied leave to
appeal, for the third time. Then, on May 29, 2007, the United States Supreme Court again denied
certiorari and then denied rehearing on July 30, 2007.

Following that, the Sixth Circuit denied his request to file a second habeas petition on
August 8, 2008. Defendant then filed his third motion for relief from judgement which was
denied by this Court on September 2, 2008. Then, on December 3, 2008, the Court of Appeals
again denied leave to appeal and denied reconsideration on January 6, 2009. Subsequently on
August 6, 2009, the Supreme Court dismissed the application under MCR 6.502(G). Then, on
December 14, 2009, the United States Supreme Court denied certiorari for the third time.

Defendant then filed his fourth motion for relief from judgement which was denied by
this Court on August 1, 2015. Then, on November 2, 2015, the Court of Appeals again dismissed
under MCR 6.502(G). Subsequently, on September 6, 2016, the Supreme Court again dismissed
under MCR 6.502(G). Following this dismissal, Defendant filed his fifth motion for relief from
judgement which was denied again by this Court on October 31, 2017. Then, on November 30,
2017, the Court of Appeals dismissed for lack of jurisdiction. Subsequently, on July 27, 2018,
the Supreme Court again dismissed under MCR 6.502(G) and denied reconsideration on October
30, 2018. Now, Defendant has filed his sixth motion for relief from judgment.

In his motion for relief from judgment, defendant must be able to demonstrate both “good
cause for failure to raise such grounds on appeal,” MCR 6.508(D)(3)(a), and “actual prejudice”
such that “but for the alleged error, [he] would have had a .reasonably likely chance of acquittal,’^
MCR 6.508(D)(3)(b)(i).

Here, Defendant argues, again, that police lied in claiming that snow was on the ground.
However, he has not based his allegation on any newly discovered evidence. Defendant relies on
evidence that defendant could have found using reasonable diligence before filing his first
motion for relief. Defendant attempts to argue that “good cause” should be waived due to there
being a “significant possibility that he is innocent of the crime,” this Court does not agree.
Defendant waited 10 years before filing his first motion for relief from judgement which was
more than sufficient time to discover the evidence he claims was falsely presented at trial.

THEREFORE Defendant’s Motion’s are DENIED.
IT IS SO ORDERED on this
Certificate of Service:
I hereby certify that a copy of this order was
sent to the parties via U.S. mail this .2-^ day
of October, 2019.
r,

Xi
Brittany Lawe, Court Officer

day of October, 2019.

Hern. Thomas D. Wilson
Circuit Judge

APPENDIX C

APPENDIX □

;

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF JACKSON
PEOPLE OF THE STATE OF MICHIGAN
Plaintiff,

HON. RUSSELL E. NOBLE
File No. 90-53331-FC

l-

v
LONZIE WAYNE MCQUIRTER, #C168742,
Defendant.
(P33223)
JERROLD SCHROTENBOER
Chief Appellate Attorney
Jackson County Prosecutor's Office
312 South Jackson Street
Jackson, MI 49201
(517) 788-4283

;

u

f"

RODNEY WATTS (P26832)
Attorney for Defendant
4363 West Davison
Detroit, MI 48238
(313) 934-1500

c
o
rr,

-<

ORDER

re
cm

;

At a session of said Court held in the Courthouse
in the City of Jackson, County of Jackson, State of
■ Michigan, this C?
day of -November, A. D • r 199 0.
PRESENT: RUSSELL E. NOBLE, CIRCUIT JUDGE
IT IS ORDERED that the motion to suppress the identification
be GRANTED.
IT IS FURTHER ORDERED that the trial be adjourned until after
the prosecutor's appeal.

HONORABLE RUSSELL E. NOBLE
Circuit Judge
Approved as to form:

Rodney Wa&ts (P2 6R3"2j—
Attorney for Defendant

I

APPENDIX E

